TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Income Verification Express Services
                    Program Needs Improvements to Better
                        Protect Tax Return Information



                                        January 26, 2011

                              Reference Number: 2011-40-014




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


THE INCOME VERIFICATION EXPRESS                      information that could be used to commit identity
SERVICES PROGRAM NEEDS                               theft. During the last two calendar years, the
IMPROVEMENTS TO BETTER PROTECT                       IVES Program processed more than 10 million
TAX RETURN INFORMATION                               requests annually.
                                                     Nonetheless, the IRS does not have a screening
                                                     process and does not define minimum
Highlights                                           requirements in the form of a user agreement to
                                                     help ensure IVES Program participants meet
Final Report issued on January 26, 2011              minimum standards and protect tax return
                                                     information. To be eligible to receive large
Highlights of Reference Number: 2011-40-014          quantities of taxpayer income information from
to the Internal Revenue Service Commissioner         the IRS via the IVES Program, applicants simply
for the Wage and Investment Division.                must submit an IVES application and register for
                                                     e-Services. In addition, the IRS does not require
IMPACT ON TAXPAYERS                                  IVES Program participants to maintain electronic
Borrowers cannot obtain loans unless they sign       security and not disclose the information they
a consent that allows the Internal Revenue           receive from the IRS to nonaffiliated third
Service (IRS) to disclose their nonpublic income     parties.
information to their lenders. Lenders can obtain     WHAT TIGTA RECOMMENDED
this income information from the Income
Verification Express Services (IVES) Program.        TIGTA recommended that the Commissioner,
Taxpayers’ personally identifiable information is    Wage and Investment Division, (1) develop and
at risk of theft or misuse when taxpayers submit     enforce minimum requirements for the IVES
IVES requests for tax return information through     Program; (2) update the IVES application to
third parties because controls are insufficient to   include a statement that taxpayer information
ensure taxpayer information the IRS provides to      can only be used for the purpose the taxpayer
IVES Program participants is protected.              intended as well as ensuring the current version
                                                     is provided to all applicants, is posted on
WHY TIGTA DID THE AUDIT                              IRS.gov, and is the only version accepted;
Personally identifiable information, such as a       (3) within one year of revising the IVES
Social Security Number, is the most valuable         application, contact and obtain a completed
tool an identity thief can obtain to commit          application from all current IVES Program
financial fraud. It becomes even more valuable       participants; and (4) revise transcript request
if it is linked to other personal data, such as      forms to allow taxpayers to limit lenders’
income information used to prepare a tax return.     disclosure of their tax return information to
The IRS should be able to assure taxpayers that      nonaffiliated third parties only if it is in the course
it is taking every precaution possible to protect    of processing or selling their loan.
their personal information.                          The IRS agreed with our recommendations and
The overall objective of this review was to          plans to (1) explore minimum requirements for
evaluate regulations and IVES enrollment             IVES participants; (2) revise the IVES
policies that ensure lenders, such as banks, and     application and ensure it provides the current
companies that specialize in making third-party      version to all IVES applicants and on IRS.gov
requests for lenders (Income Verification            and only accepts the most current version from
Specialists) properly protect taxpayers’ tax         applicants; (3) obtain a completed version of the
return information.                                  new form from all IVES Program participants;
                                                     and (4) develop the necessary language for
WHAT TIGTA FOUND                                     transcript request forms to allow taxpayers to
                                                     limit lenders’ disclosure.
IVES Program participants obtain and collect
large quantities of taxpayers’ personally
identifiable information and associated tax return
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 26, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Income Verification Express Services
                             Program Needs Improvements to Better Protect Tax Return
                             Information (Audit # 201040043)

 This report presents the results of our review to evaluate regulations and Income Verification
 Express Services (IVES) enrollment policies that ensure lenders, such as banks, and companies
 that specialize in making third-party requests for lenders (Income Verification Specialists)
 properly protect taxpayers’ tax return information. This audit is included in our Fiscal Year 2011
 Annual Audit Plan and addresses the major management challenge of Taxpayer Protection and
 Rights.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                           The Income Verification Express Services Program Needs
                            Improvements to Better Protect Tax Return Information




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Controls Over the Income Verification Express Services
          Program Need Strengthening to Protect Tax Return
          Information From Disclosure ........................................................................ Page 6
                    Recommendations 1 through 4:......................................... Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Management’s Response to the Draft Report ...................... Page 17
         The Income Verification Express Services Program Needs
          Improvements to Better Protect Tax Return Information




                       Abbreviations

CBSV            Consent-Based Social Security Number Verification
e-file          electronic file
IRS             Internal Revenue Service
IVES            Income Verification Express Services
                       The Income Verification Express Services Program Needs
                        Improvements to Better Protect Tax Return Information




                                            Background

Personally identifiable information, such as a Social Security Number, is the most valuable tool
an identity thief can obtain to commit financial fraud. It becomes even more valuable if it is
linked to other personal data, such as income information used to prepare a tax return. More
than 142 million taxpayers entrust the Internal Revenue Service (IRS) with sensitive financial
and personal data, much of it on paper documents requiring protection. The law requires that tax
returns and return information shall be confidential, except as authorized. The definition of tax
return information includes a taxpayer’s identity and the nature, source, or amount of income,
payments, receipts, deductions, exemptions, credits, assets, liabilities, net worth, tax liability, and
tax withheld.
Taxpayers commonly request tax return transcripts1 for many reasons, which include verifying
income to obtain a loan. They can order the transcripts directly from the IRS or others can order
the transcripts on the taxpayer’s behalf. Lenders, Income Verification Specialists,2 and other
entities verify income information on behalf of a taxpayer through the IRS’s Income Verification
Express Services (IVES) Program.
Lenders that loan money to individuals (borrowers) for mortgages require borrowers to verify
their income before they approve their loans.3 This is accomplished by the borrower signing a
consent form that allows the lender to obtain a transcript of the borrower’s tax information
directly from the IRS.
For lenders to obtain transcripts, borrowers complete and provide the lender with either a
completed Request for Transcript of Tax Return (Form 4506-T) or a Short Form Request
for Individual Tax
Return Transcript
(Form 4506T-EZ). The
request must include the
name, address, and
telephone number of the third party to whom the IRS should send the income information—
typically, the lender or an Income Verification Specialist.
A signed Form 4506-T or 4506T-EZ must be submitted to the IRS within 120 days of the
borrower’s signature date. To obtain updated information, lenders should ask borrowers to

1
  Transcripts provide most of the information contained in a tax return.
2
  An Income Verification Specialist is a company that specializes in obtaining income information about individuals.
Lenders often use them to verify the income of loan applicants.
3
  Dodd-Frank Wall Street Reform and Consumer Protection Act, Pub.L. No. 111-203, 124 Stat. 2143, enacted
July 21, 2010.
                                                                                                            Page 1
                       The Income Verification Express Services Program Needs
                        Improvements to Better Protect Tax Return Information



complete and sign a new request form. In the past, to avoid this burden, lenders asked borrowers
to sign blank request forms when applying for loans. In response, the IRS added a statement to
the top of Form 4506-T instructing borrowers to not sign the form unless all applicable lines
have been completed; however, the latest revision does not contain that statement.
Lenders that enroll in the IRS e-Services4 Program can use the IVES Program to fax bulk
requests (Forms 4506-T and 4506T-EZ) to one of the five IRS Return and Income Verification
Services units.5 The Return and Income Verification Services units use the Transcript Delivery
System6 to deliver tax return transcripts electronically to IVES participants’ secure mailboxes
(Secure Object Depository) located on the e-Services electronic platform. Lenders also contract
with Income Verification Specialists to order and obtain the transcripts for them.
The IVES Program automates bulk requests received from businesses that routinely submit a
high volume of requests as part of their business operations (e.g., large mortgage or income
verification companies). The IVES Program generally delivers transcripts to requestors within
2 business days. Participants retrieve their transcripts from a secure mailbox. During the last
2 calendar years, the IVES Program processed more than 10 million requests annually. It
currently charges $2.25 for each request.

IRS e-Services and the IVES Program
Lenders and Income Verification Specialists must apply to the IRS’s e-Services and to the IVES
Program to request bulk transcripts.
    •    To register for e-Services, applicants must provide their legal name, Social Security
         Number, date of birth, telephone number, home and email address, and the Adjusted
         Gross Income from either the applicant’s current year or prior year filed tax return.
    •    To register for the IVES Program, each participating company must complete an IVES
         Application (Form 13803). Form 13803 requests basic information about the business,
         including name, address, telephone number, and fax number. It also requires the name of
         the principal owner or controlling officer of the company. The principal can be the
         owner, business manager, or officer who has the responsibility to administer the
         company’s participation in the IVES Program. The form also asks for a primary point of
         contact that would be available on a daily basis in case the IRS needs to contact the


4
  A suite of web-based products that allows tax professionals and taxpayers to conduct business with the IRS
electronically. These services are available 24 hours a day, 7 days a week, via the Internet.
5
  The five Return and Income Verification Service units with Income Verification Express Services are located in
Fresno, California; Kansas City, Missouri; Cincinnati, Ohio; Austin, Texas; and Ogden, Utah.
6
  The Transcript Delivery System automates the validation, processing, and delivery of taxpayer information to
taxpayers or authorized third parties. The Transcript Delivery System can be accessed by IRS employees and
includes self-service electronic communication, whereby the user can request and receive a transcript interactively
through the e-Services portal.
                                                                                                             Page 2
                        The Income Verification Express Services Program Needs
                         Improvements to Better Protect Tax Return Information



           company. Finally, it asks for a Responsible Official, or the person who manages the
           IVES Program at each business office location. The company can choose to designate a
           Responsible Official or just a principal to oversee the process.
Once accepted into the IVES Program, participants can submit completed Forms 4506-T or
4506T-EZ to confirm the income of taxpayers.

Laws and regulations
Various laws address how third parties may disclose taxpayer information they obtain from the
IRS. Title V of the Gramm-Leach-Bliley Act7 specifically addresses disclosure and security laws
for lenders and Income Verification Specialists working for lenders.
The Gramm-Leach-Bliley Act contains restrictive
privacy provisions relating to borrowers’ income
                                                                       Exceptions to the
information; however, lenders may still share taxpayers’         Gramm-Leach-Bliley Act allow
income information with third parties when they obtain           lenders to disclose borrowers’
it while servicing or processing a financial product or           personal income information
service that an individual requests (such as a mortgage          with nonaffiliated third parties.
loan). For example, lenders may disclose income
information to nonaffiliated third parties in the course of
selling a loan on the secondary market without giving notice to the borrower or allowing them to
“opt out.” Lenders may also disclose income information to any third party (such as marketers)
if the borrower does not specifically instruct the lender not to do so by “opting out.” Lenders
must provide notices to their customers and consumers about their information-collection and
information-sharing practices and give them the option to “opt out.” Figure 1 provides a list of
the various laws and regulations on disclosure of taxpayer information.
                            Figure 1: Laws and Regulations Regarding
                                Disclosure of Taxpayer Information

Gramm-Leach-Bliley Act            Title V of the Act restricts how lending institutions may share borrowers’
                                  income information, including income information received from the IRS;
                                  however, lenders may still share taxpayers’ income information with
                                  third parties in connection with servicing or processing a financial product
                                  or service that an individual requests (such as a mortgage loan).
                                  Such institutions must develop and give notice of their privacy policies to
                                  their own customers and/or consumers before disclosing any individual's
                                  nonpublic personal information (which includes personal financial
                                  information to nonaffiliated third parties, thus giving notice and an
                                  opportunity for that individual to "opt out" from such disclosure. This notice
                                  must be provided at least annually.


7
    Pub. L. No. 106-102, 113 Stat. 1338, enacted November 12, 1999.
                                                                                                         Page 3
                         The Income Verification Express Services Program Needs
                          Improvements to Better Protect Tax Return Information




                                Lenders may also disclose income information to nonaffiliated third parties
                                in the course of selling a loan on the secondary market without giving
                                notice to the borrower or allowing them to “opt out.”

Internal Revenue Code           Tax return information is confidential and no officer or Federal employee
Section 6103                    should disclose tax return information except as authorized.
                                Section 6103(c) authorizes the Treasury Secretary to prescribe
                                requirements and conditions that would allow officers and Federal
                                employees to disclose tax return information to persons the taxpayer
                                designates in a request for or consent to such disclosure.
Internal Revenue Code           Section 7216 applies to any person who is engaged in the business of
Section 7216                    preparing, or providing services in connection with the preparation of, tax
                                returns for compensation. Any such person who knowingly or recklessly
                                discloses any information furnished to him or her for, or in connection with,
                                the preparation of any such tax return, or uses any such information for
                                any purpose other than to prepare, or assist in preparing, any such return,
                                shall be guilty of a misdemeanor.
Privacy Act of 19748            With specifically mentioned exceptions, no agency shall disclose any
                                record which is contained in a system of records,9 except pursuant to a
                                written request by, or with the prior written consent of, the individual to
                                whom the record pertains.
                                Agencies with systems of records (for example, taxpayer information) must
                                establish appropriate administrative, technical, and physical safeguards to
                                ensure the information contained in the records remains secure and
                                confidential. This includes protecting the information against threats or
                                hazards which could result in substantial harm, embarrassment,
                                inconvenience, or unfairness to any individual on whom the agency
                                maintains information.
                                In addition, each agency shall keep an accurate accounting of the date,
                                nature, and purpose of each disclosure to any person or agency, as well
                                as the name and address of the person or agency to whom disclosure is
                                made.
Source: Laws as cited.

This review was performed at the Wage and Investment Division Headquarters in Atlanta, Georgia,
and the Return and Income Verification Services unit in Kansas City, Missouri, during the period
June through October 2010. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and

8
  5 U.S.C. § 552a (2006).
9
  The Privacy Act defines a system of records as a group of any records under the control of any agency from which
information is retrieved by the name of the individual or by some identifying number, symbol, or other identifying
particular assigned to the individual.
                                                                                                          Page 4
                   The Income Verification Express Services Program Needs
                    Improvements to Better Protect Tax Return Information



conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our finding and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 5
                       The Income Verification Express Services Program Needs
                        Improvements to Better Protect Tax Return Information




                                       Results of Review

Controls Over the Income Verification Express Services Program
Need Strengthening to Protect Tax Return Information From
Disclosure
Taxpayer information is at risk of theft or misuse when taxpayers submit requests for tax return
information through third parties because controls are insufficient to ensure taxpayer information
the IRS provides to IVES Program participants is protected. Laws and regulations that protect
taxpayer information do not always cover IVES Program participants.
     •   IVES Program participants are not required to meet any minimum standards or similar
         standards the IRS established for Electronic File (e-file) Providers10 and contractors.
     •   The IRS does not require that IVES Program participants agree to maintain electronic
         security and not disclose the information they receive from the IRS to nonaffiliated third
         parties.
Also, limited testing showed that IVES Program participants may be altering Forms 4506-T after
taxpayers sign the forms.
The IRS has significant controls over e-file Providers that submit tax returns and taxpayer
information to the IRS, but controls are limited for IVES Program participants that receive
taxpayer information from the IRS. Taxpayers need to be assured that the IRS is taking every
precaution to protect their tax return information. This includes, but is not limited to, processing
taxpayer requests for transcripts. IVES Program participants can obtain and collect large
quantities of personally identifiable information and associated taxpayer income information that
could be at risk for identity theft.11




10
   An authorized IRS e-file Provider is a business or organization authorized by the IRS to participate in IRS e-file.
It may be a sole proprietorship, partnership, corporation, or other entity. Applicants accepted for participation in
IRS e-file are Authorized IRS e-file Providers.
11
   Identity theft occurs when someone uses personally identifiable information, such as an individual’s name, Social
Security Number, credit card numbers, or other personal information, to commit fraud and other crimes.
                                                                                                              Page 6
                      The Income Verification Express Services Program Needs
                       Improvements to Better Protect Tax Return Information



The IRS does not set minimum requirements or conduct suitability tests on the
IVES Program applicants
E-file Provider applicants must meet program requirements and suitability checks in order to
submit tax returns to the IRS. See Figure 2 for the types of e-file Providers.
                      Figure 2: Types of Authorized IRS E-File Providers

       Electronic Return         Electronic Return Originators originate the electronic submission of
       Originator                tax returns to the IRS.

       Intermediate Service      Intermediate Service Providers assist with processing tax return
       Providers                 information between Electronic Return Originators (or the taxpayer
                                 in the case of Online Filing) and a Transmitter.

       Online Providers          Online Providers allow taxpayers to self-prepare tax returns by
                                 entering return data directly on commercially available software,
                                 through software downloaded from an Internet site and prepared
                                 offline, or through an online Internet site.

       Reporting Agent           Reporting Agents originate the electronic submission of certain
                                 returns for their clients, and/or transmit the returns to the IRS. A
                                 Reporting Agent must be an accounting service, franchiser, bank,
                                 or other similar entity,

       Software Developers       Software Developers write either origination or transmission
                                 software according to the IRS e-file specifications.

       Transmitters              Transmitters send electronic return data directly to the IRS.
                                 Electronic Return Originators and Reporting Agents may apply to
                                 be Transmitters and transmit return data themselves, or they may
                                 contract with an accepted third-party Transmitter that can transmit
                                 the data for them.

   Source: IRS e-file Application and Participation (Publication 3112).

The requirements and suitability checks for the e-file Provider Program state applicants must be:
   •     A United States citizen or legal resident alien.
   •     21 years of age as of the date of the application.
Suitability checks may include:
   •     Criminal background check.
   •     Credit history check.



                                                                                                        Page 7
                    The Income Verification Express Services Program Needs
                     Improvements to Better Protect Tax Return Information



   •   Tax compliance check to ensure all required tax returns are filed and paid and to identify
       fraud and preparer penalties.
The IRS also verifies the status of e-file Provider applicants who submit professional
certifications in lieu of a fingerprint card to ensure they are still in good standing with the
particular organizations that issued the certifications.
IRS contractors must also meet minimum standards and submit fingerprints for a background
investigation before the IRS will share taxpayer information with them. In addition to the
background investigation, an individual who will have access to taxpayer information must be
Federal tax compliant, a United States citizen or have lawful permanent resident status, and
registered with the Selective Service (for males born after 1959).
However, IVES Program participants meet no minimum requirements and the IRS verifies only
an applicant’s name, Social Security Number, and date of birth. It does not conduct any
suitability tests (e.g., criminal background checks or tax compliance checks).

IVES Program participants are not always covered by laws that protect taxpayer
information
Most IVES Program participants are not covered by the same disclosure laws as tax return
preparers. Internal Revenue Code Section 7216 states that any person engaged in the business of
preparing tax returns and who knowingly or recklessly discloses information in connection with
the preparation of tax returns or uses any of the information for any purpose other than to prepare
a tax return shall be guilty of a misdemeanor. Upon conviction, the preparer shall be fined not
more than $1,000 and/or imprisoned not more than 1 year.
Disclosure provisions for tax information in the Gramm-Leach-Bliley Act cover lenders, but it
provides exceptions for disclosure when lenders are servicing or processing a financial product
or service that an individual requests (such as a mortgage loan). Lenders may share loan
information, including tax information, with third parties unless the borrower specifically
requests the lender not do so.
There are no laws that specifically apply to Income Verification Specialists unless they are
working on behalf of an entity covered by an existing law or regulation. For example, the
Gramm-Leach-Bliley Act applies to Income Verification Specialists if they work on behalf of a
lender and there is a contractual agreement between both parties. In this case, the lender is
responsible for specifying the data security safeguards against threats or hazards that the Income
Verification Specialists must follow and monitor how they handle taxpayer information.
A review of a list of IVES Program participants showed that there were 1,695 participants in the
IVES Program as of August 2010. From the information the IRS retains on IVES participants,
we could not determine if the participants would come under one of the laws that prevent
disclosure of taxpayer information. The IRS does not require applicants to provide the purpose

                                                                                                  Page 8
                        The Income Verification Express Services Program Needs
                         Improvements to Better Protect Tax Return Information



of their participation in the IVES Program. The Form 13803 requests names, contact
information, and Social Security Numbers, but when asked for the Social Security Numbers for
the participants, the IRS was unable to provide them to us during our fieldwork.
In November 2009, the Department of the Treasury announced e-signature12 guidelines for the
Home Affordable Modification Program and provided guidance on the methodology for using
electronic signatures to complete the process. The only document in the package that borrowers
cannot electronically sign under Treasury guidelines is the Form 4506-T. The IRS’s inability to
implement an e-signature program for Forms 4506-T within the lending industry is an indirect
result of the vulnerabilities of the IVES Program. In contrast with e-signatures accepted from
e-file Providers who are screened, IRS management is not prepared to accept the risk of
receiving e-signatures from IVES Program participants because they have not been subjected to
the same requirements.

Prior to November 2009, the IVES Program did not require participants to agree to
any rules, conditions, or terms that provide safeguards over tax information
Form 13803 (November 2009) provides IVES Program applicants with the following:
         We are now offering a Transcript Delivery System (TDS) bulk upload process which allows you to
         create a text file for submission of multiple requests on one spreadsheet. Please mark this box if
         you wish to utilize the TDS bulk upload feature.
             By marking this box, you agree to review Publication 4557, Safeguarding Taxpayer Data, and
          to abide by the guidelines of the publication.

The prior version of Form 13803, dated September 2006, did not include these statements.
Safeguarding Taxpayer Data (Publication 4557) provides guidelines on establishing safeguards
for IVES Program applicants:
     •    Preserve the confidentiality and privacy of taxpayer data by restricting access and
          disclosure.
     •    Protect the integrity of taxpayer data by preventing improper or unauthorized
          modification or destruction.
     •    Maintain the availability of taxpayer data by providing timely and reliable access and
          data recovery.
However, Publication 4557 only restricts disclosure of taxpayer information, but does not
prohibit it. In addition, at the time of this audit, the November 2009 version had not been posted
on IRS.gov; therefore, there is no assurance that any applicants are aware of these requirements
or are following them.

12
  An e-signature is an electronic process attached to or associated with a contract or other record and used as the
legal equivalent of a written signature.
                                                                                                              Page 9
                       The Income Verification Express Services Program Needs
                        Improvements to Better Protect Tax Return Information



The Social Security Administration has an extensive User Agreement for its Consent-Based
Social Security Number Verification (CBSV) Program that:
     •   Details Program use.
     •   Restricts the use of information provided.
     •   States how CBSV Program participants should conduct annual compliance reviews.
     •   Outlines participants’ responsibilities.
The CBSV Program is a fee and consent-based Social Security Number verification service
available to, among others, private companies.13 Participating companies can use the CBSV
Program to verify if a name and Social Security Number combination match the data in the
Social Security Administration’s records. For each Social Security Number and name
combination submitted to the CBSV Program, the
Social Security Administration confirms that the
                                                                  When the Social Security
submission either matches or does not match Social          Administration releases information
Security Administration records.                                to program subscribers, the
                                                                            recipients may use it only for
Similar to Form 4506-T transcript requests sent to the        reasons specified by the taxpayer.
IRS, the CBSV Program requires the written consent              The IRS does not make similar
of the Social Security Number holder before it will         restrictions for taxpayer information.
provide the requestor with information. However, the
Social Security Administration allows only the
requesting party to use the information they receive for the reason for which the Social Security
Number holder specifies on the consent form.
The IRS does not include a space on either Form 4506-T or Form 4506T-EZ for taxpayers to
specify the reason for disclosure or limit the use of the Forms for that use. The IRS does provide
a warning to taxpayers on the Forms 4506-T that states the following:
     If the transcript or tax information is to be mailed to a third party (such as a mortgage company),
               enter the third party’s name, address, and telephone number. The IRS has no
                        control over what the third party does with the tax information.

The Social Security Administration states that noncompliance with the User Agreement may be
grounds for suspension or dismissal from the CBSV Program. The only cause for suspension
listed when applying for the IVES Program is failure to timely pay fees. The suspension lasts
until such time that the participant pays all outstanding invoices in full. While e-Services
reserves the right to deny users access to any electronic services, products, and/or applications if
the IRS becomes aware of misuse or abuse, such misuses (for example, the submission of a
recycled or altered Form 4506-T) are not defined.

13
   To use the CBSV Program, users must pay a one-time, nonrefundable enrollment fee of $5,000 and then a
transaction fee per Social Security Number verification request. The transaction fee is currently $5.00 per request,
and users must pay the fee in advance.
                                                                                                            Page 10
                      The Income Verification Express Services Program Needs
                       Improvements to Better Protect Tax Return Information



Limited tests showed some Forms 4506-T may be altered after the taxpayers signed them.
A limited review of completed IVES Program transcript requests identified faxed copies on
which the third party presumably used a sticker to complete line 5 on the Form 4506-T. Line 5
asks for third-party information if the IRS is to mail the transcript to a third party. Because of
this, we were unable to determine if the taxpayers signed the Form 4506-T with another third
party’s name in line 5 and the company subsequently covered line 5 with a sticker. The IRS’s
Internet instructions instruct IVES Program participants to insert the company’s name and
address on line 5 after the taxpayers have completed and signed the Form.

                 IRS Internet Instructions for Completing Form 4506-T
                       Have the taxpayer complete and sign Form 4506-T
                       according to the instructions provided with the form. On
                       line 5 (designation of a third party to whom the transcript is
                       to be delivered) insert your company’s name, address,
                       facsimile number, and the delegate’s user-ID for secure
                       mailbox delivery.


As we have reported, the IRS continues to implement improvements to its e-file Provider
Program controls to ensure only authorized providers participate in the e-file Provider Program.14
The IRS should now ensure that IVES Program participants are also subject to similar controls.
It should also ensure that IVES Program participants, like those in the Social Security
Administration’s CBSV Program, are required to maintain electronic security over taxpayer data
and are prohibited from disclosing information they receive from the IRS on behalf of taxpayers
and lenders.
Unauthorized disclosure of tax return information puts taxpayers at risk for improper use of their
information, including identity theft. Identity theft occurs when someone uses personally
identifiable information, such as an individual’s name, Social Security Number, credit card
numbers, or other account information, to commit fraud and other crimes. Taxpayers need to be
assured that the IRS is taking every precaution to protect their tax return information. This
includes, but is not limited to, processing taxpayers’ requests for transcripts. IVES Program
participants, most of whom may be lenders and/or Income Verification Specialists, obtain and
collect large quantities of personally identifiable information and taxpayer income information
that is vulnerable to disclosure if controls are not sufficient to protect it.




14
  Better Screening and Monitoring of E-File Providers Is Needed to Minimize the Risk of Unscrupulous Providers
Participating in the E-File Program (Reference Number 2007-40-176, dated September 19, 2007).
                                                                                                       Page 11
                     The Income Verification Express Services Program Needs
                      Improvements to Better Protect Tax Return Information



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop and enforce minimum requirements for the IVES Program that
would help ensure participants are suitable to have a working relationship with the IRS and
receive taxpayer information from the IVES program.
        Management’s Response: The IRS agreed to explore minimum requirements for
        IVES participants, including background investigations and tax compliance checks.
Recommendation 2: Update Form 13803 to include a statement that taxpayer information
can only be used for the purpose the taxpayer/requestor intended. Ensure the current version of
Form 13803 is provided to all applicants, is posted on IRS.gov, and is the only version accepted.
        Management’s Response: The IRS agreed with this recommendation. It will revise
        Form 13803 as requested. The IRS will ensure the current version of Form 13803 is
        provided to all IVES applicants and is posted on IRS.gov. It will also accept only the
        most current version from applicants.
Recommendation 3: Within 1 year of revising Form 13803, contact and obtain a completed
Form 13803 from all current IVES Program participants.
        Management’s Response: The IRS agreed with this recommendation. Once it
        revises the Form 13803, the IRS will contact all current IVES Program participants and
        obtain a current version of the form.
Recommendation 4: Revise Forms 4506-T and 4506T-EZ to allow taxpayers to limit lending
institutions’ disclosure of their tax return information to nonaffiliated third parties only if it is in
the course of processing or selling their loan.
        Management’s Response: The IRS agreed with this recommendation. The Tax
        Forms and Publications function will work closely with IRS Chief Counsel to develop the
        necessary language.




                                                                                               Page 12
                       The Income Verification Express Services Program Needs
                        Improvements to Better Protect Tax Return Information



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate regulations and IVES enrollment policies
that ensure lenders, such as banks, and companies that specialize in making third-party requests
for lenders (Income Verification Specialists1) properly protect taxpayers’ tax return information.
To accomplish our objective, we:
I.      Determined how current regulations, laws, and IRS policies could be amended or
        modified to ensure third parties and lenders properly protect taxpayers’ tax return
        information from improper disclosure or theft.
        A. Talked to representatives from the Department of the Treasury’s Office of the
           Comptroller of Currency to identify current laws and regulations addressing the
           protection of tax return information by lenders and Income Verification Specialists.
        B. Discussed with IRS management the risks associated with sending tax return
           information to third parties and lenders.
        C. Identified changes or additions to current laws and regulations (or the need for a new
           law or regulation) that would reduce the risk of third parties and lenders improperly
           using or disclosing tax return information as well as ensuring the data are protected
           from theft.
II.     Determined how the IRS could strengthen IVES Program enrollment policies to ensure
        third parties adequately protect tax return information from improper disclosure or theft.
        A. Determined if the IRS requires IVES Program participants to meet specific standards
           for disclosure and security requirements.
        B. Identified and evaluated the potential security requirements for IVES Program
           participants, especially third parties and lenders, which would help prevent identity
           theft2 and improper disclosure of tax return information.
III.    Determined if third parties and lenders are improperly using Request for Transcript of
        Tax Return (Form 4506-T) or a Short Form Request for Individual Tax Return Transcript



1
  An Income Verification Specialist is a company that specializes in obtaining income information about individuals.
Lenders often use them to verify the income of loan applicants.
2
  Identity theft occurs when someone uses personally identifiable information, such as an individual’s name, Social
Security Number, credit card numbers, or other personal information, to commit fraud and other crimes.
                                                                                                          Page 13
                       The Income Verification Express Services Program Needs
                        Improvements to Better Protect Tax Return Information



         (Form 4506T-EZ) by reusing or resubmitting altered copies of the forms to request
         updated information from the IRS.
         A. Obtained a list of IVES Program participants and reviewed the Transcript Delivery
            System3 to determine which participants are lenders or third parties who specialize in
            providing tax return information to lenders.
         B. Reviewed 391 hard copy Forms 4506-T at the Kansas City, Missouri, IVES Program
            location to determine if we could identify instances of alterations, post-dating by third
            parties, or forms submitted after 120 days of signature.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS policies, procedures, and practices
for helping to ensure the people to whom it is sending large amounts of taxpayer information will
appropriately protect it. We evaluated these controls by performing the steps previously noted.




3
  The Transcript Delivery System automates the validation, processing, and delivery of taxpayer information to
taxpayers or authorized third parties. The Transcript Delivery System can be accessed by IRS employees and
includes self-service electronic communication, whereby the user can request and receive a transcript interactively
through the e-Services portal.
                                                                                                            Page 14
                  The Income Verification Express Services Program Needs
                   Improvements to Better Protect Tax Return Information



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Wilma Figueroa, Audit Manager
Kenneth Carlson, Lead Auditor
Pamela M. DeSimone, Senior Auditor
Patricia A. Jackson, Senior Auditor




                                                                                    Page 15
                 The Income Verification Express Services Program Needs
                  Improvements to Better Protect Tax Return Information



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Deputy Commissioner of Services, Wage and Investment Division SE:W
Director, Privacy, Information Protection, and Data Security OS:P
Director, Customer Account Services SE:W:CAS
Director, Submission Processing SE:W:CAS:SP
Director, Electronic Products and Services Support, Wage and Investment Division
SE:W:CAS:E:PSS
Chief Counsel CC
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                               Page 16
     The Income Verification Express Services Program Needs
      Improvements to Better Protect Tax Return Information



                                                  Appendix IV

Management’s Response to the Draft Report




                                                         Page 17
The Income Verification Express Services Program Needs
 Improvements to Better Protect Tax Return Information




                                                    Page 18
The Income Verification Express Services Program Needs
 Improvements to Better Protect Tax Return Information




                                                    Page 19
The Income Verification Express Services Program Needs
 Improvements to Better Protect Tax Return Information




                                                    Page 20
